Certificate of Service
Herewith are 40 of the paperbooks
No. 20-843

IN THE

Supreme Court of the United States

BRIEF OF AMICUS JOHN ELSON ESQUIREc
IN SUPPORT OF RESPONDENTS

I hereby certify that I am this day serving the foregoing
document (3) copies upon the person(s) and in the manner indicated
below. Service by first-class mail addressed as follows:

Respectfully Submitted,
ROD CURRY
CURRY & TAYLOR LLC
1726 NEVADA AVE NE
ST. PETERSBURG, FL 33703
(202) 350-9073

